HHS/OIG, Audit -"Review of Medicaid Payments Made by the New Mexico Human Services Department for Members Enrolled in the State's Medicaid Managed Care Program Entitled,"SALUD!","(A-06-02-00038)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Payments Made by the New Mexico Human Services Department
for Members Enrolled in the States Medicaid Managed Care Program Entitled, SALUD!," (A-06-02-00038)
March 21, 2003
Complete
Text of Report is available in PDF format (788 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our review of Medicaid payments made by
the New Mexico Human Services Department (NMHSD) for members enrolled in the
states Medicaid managed care program entitled, SALUD!.  The objectives
of our review were to determine whether managed care payments made under SALUD!
were correct and for eligible members; and whether Medicaid payments made under
the fee-for-service (FFS) program were for services already covered under SALUD!.  Our
review disclosed that NMHSD made incorrect managed care and FFS payments totaling
about $3.6 million.  We recommended that NMHSD refund the federal share
totaling about $2.6 million related to the overpayments; maintain accurate
and complete eligibility information; and consider revising its contracts with
managed care organizations (MCOs) to allow for recovery of overpayments beyond
the 24-month limitation and regardless of whether the MCOs provided services.  The
NMHSD agreed with our findings and are in the process of determining the overpayments
and taking corrective action.